1
                                            INTRODUCTION




1
    Internal Controls Over Purchase Card Use in BIO Need Improvement (Report No. 00-2008).



                                                   2
3
4
5
z 37% of respondents to our questionnaire said that they do not use purchase requisitions.


                                                      6
7
I




I

I
I


I




I


    8
3
  The criteria for determining whether property is accountable depends on its value and other factors that
are discussed in the NSF Administrative Manual Chapter IV, Subchapter 300.
4
  Some cardholders arrange for accountable property to be shipped through the Property and Records
Section, which assures that each item is properly recorded in the system.


                                                     10
11
SEP   2 0 2002
Management Response

DAS concurs with the recommendation and has already implemented a program
of re-educating its cardholders and AOs. This is being done through training,
monthly transaction follow-up, and supporting information in the Purchase Card
Manual. Additional emphasis to the issues noted above will be provided
throughout the coming fiscal year via email notices to cardholders.


Recommendation 5

The Acting Director of DAS should communicate to AOs and cardholders that
cards must be maintained in a secure location such as a locked box or drawer
and not carried in a wallet or handbag, and that the use of the government
bankcard other than by the assigned cardholder is strictly prohibited.

Management Response

DAS concurs with this recommendation, and has already partially implemented it.
The training course held in August 2002 for prospective new cardholders
strengthened the language in the NSF Purchase Card Manual to state
specifically that purchase cards are to be kept in locked locations, not in a
cardholder's wallet or purse. In addition to being incorporated in the Purchase
Card Manual, this point will be emphasized throughout the year during audits and
via reminder email notices from the APC.


Recommendation 6

The Acting Director of DAS should take steps to ensure that cardholders
purchase from required sources listed in the NSF Purchase Card Manual, when
they are capable of providing the supplies or services needed.

Management Response

DAS concurs with this recommendation. The APC will be developing additional
guidance and training for cardholders on those situations in which the preferred
source is not used, due to emergency of the requirement (time), or non-
availability. Please refer to the Management Response to Recommendation 3
for additional comments.
